NO.

IN THE
SUPREME COURT OF THE UNITED STATES

 

JOSHUA JERMAINE NELSON,
Petitioner,
v.

THE STATE OF TEXAS,
Respondent.

 

On Petition for Writ of Certiorari to the First
Court of Appeals at Houston, Texas

 

PROOF OF SERVICE

Thereby certify that on July 21, 2020, one copy of Petitioner’s Motion
to Proceed in Forma Pauperis, Petition for Writ of Certiorari and
Appendices were sent via third-party commercial carrier and electronic
mail to Respondent in care of Stacey M. Soule, State Prosecuting
Attorney; P.O. Box 138046 Austin, Texas 78711 (512) 463-1660
information@spa.texas.gov: and to Jason Bennyhoff, Fort Bend County
Ass’t District Attorney 301 Jackson Street Richmond, Texas 77469 (281)
341-4460 jason. bennyhoff@fortbendcountytx.gov. All parties required to
be served have been served. I am a member of the Bar of this Court.
/

\ a /
Leonard Thomas Bradt
S.B.0.T. #02841600
14090 Southwest Freeway, Suite 300
Sugar Land, Texas 77478
(281) 201-0700
Fax: (281) 201-1202
Itbradt@flash.net
Counsel of Record

 
